<html>
<title> - REVIEWING THE TENNESSEE VALLEY AUTHORITY'S PROHIBITION ON HOUSEBOATS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









  REVIEWING THE TENNESSEE VALLEY AUTHORITY'S PROHIBITION ON HOUSEBOATS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2016

                               __________

                           Serial No. 114-167

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-169 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                       
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
                          Mary Doocy, Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 23, 2016...............................     1

                               WITNESSES

Mr. William (Bill) D. Johnson, President and CEO, Tennessee 
  Valley Authority
    Oral Statement...............................................     4
    Written Statement............................................     7
Ms. Laura Sneed, Founder, Fontana Families for Floating Houses
    Oral Statement...............................................    17
    Written Statement............................................    19
Mr. David Monteith, Vice Chairman, Swain County Board of 
  Commissioners
    Oral Statement...............................................    71
    Written Statement............................................    73
Mr. Michael T. Wilks, President, Tennessee Valley Floating Home 
  Alliance
    Oral Statement...............................................    75
    Written Statement............................................    79
Mr. Michael Butler, Chief Executive Officer, Tennessee Wildlife 
  Federation
    Oral Statement...............................................   117
    Written Statement............................................   119

                                APPENDIX

Response from Mr. Johnson TVA to Questions for the Record........   150
 
  REVIEWING THE TENNESSEE VALLEY AUTHORITY'S PROHIBITION ON HOUSEBOATS

                              ----------                              


                       Friday, September 23, 2016

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:34 a.m., in 
Room 2247, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee] presiding.
    Present: Representatives Meadows, Jordan, Walberg, Buck, 
Grothman, Connolly, Maloney, and Plaskett.
    Mr. Meadows. The Subcommittee on Government Operations will 
come to order. And without objection, the chair is authorized 
to declare a recess at any time.
    I want to start out by saying good morning and welcome, and 
thanking my colleagues. This is one of those days where when 
the schedule was changed, obviously, Mr. Walberg, who is the 
vice chair of the subcommittee, and Mr. Connolly, who is the 
ranking member of this subcommittee, adjusted their schedules 
to remain here, and so on behalf of myself and all those that I 
represent, I want to acknowledge that, and I thank you.
    I also want to make a welcome to all those that not only 
have traveled so far and are here today to testify and come and 
be here on this important issue, but those on a Webcast, that 
we probably had more calls about how to view this particular 
hearing than others that would maybe make the headlines of The 
Washington Post. So it is refreshing to see that so many people 
are wanting to get involved.
    The Tennessee Valley Authority, or the TVA as it's known, 
is a Federal corporate agency of the United States, and in May 
of this year, the board of directors of TVA actually proposed a 
policy to prohibit all new floating homes on the 49 reservoirs 
in the seven southeastern States. This proposed policy also 
required the removal of all floating homes after a 30-year 
sunset provision. For the hardworking homeowners in the TVA's 
jurisdiction of Virginia, Tennessee, North Carolina, Georgia, 
Alabama, Mississippi, and Kentucky, this proposed policy would 
be devastating.
    Now, I've said this before and I will say it again, this is 
yet another example of the Federal Government getting involved 
without seriously evaluating the consequences placed on 
taxpaying families. And as we will hear in testimony today, 
those impacted, some of whom have lived on these reservoirs for 
generations, feel genuinely outraged and misled. For example, 
many were promised in 1978, when TVA put forth a rule that it 
would subsequently really never enforce for nearly 40 years, 
that existing houseboats would be grandfathered in, and yet, 
here we are today. Those that are owners of the grandfathered 
houseboats are being told to start packing their bags. What's 
more, the number of floating homes that have increased over the 
decades and the homeowners in the Tennessee Valley have 
invested tens of thousands, and, indeed, tens of millions of 
dollars into new or existing floating homes.
    You know, in my home State of North Carolina, hundreds of 
families will be forced to move from their homes, many of whom 
who have enjoyed those and lived there for years and years and 
years, if not decades. This policy would be also detrimental 
financially to the impact on the region, and will become nearly 
impossible for those families, now that we have this sunset 
provision, to sell their floating homes when you look at it, 
not to mention the fact that it will dampen the thriving 
houseboat tourism communities that are in many of some of the 
most difficult, economically-challenged areas in the southeast.
    Today, we will also hear whether or not those purported 
improvements, the removal of the houseboats, will have on the 
environment, and is that accurate and is this an infringement 
that's worth taking on to invade the personal liberties and 
freedoms to live where one chooses?
    Instead of focusing on this policy, the TVA, in my opinion, 
should focus its energies on its critical priorities. I don't 
know that I've ever been more clear in my position to 
leadership of an agency or subagency, or in this case, a 
Federal corporation, in terms of my disapproval of a particular 
decision than this. For example, providing electricity for 
businesses and customers and the local power distributors of 
some 9 million people in the southeast, instead of displacing 
the homeowners, perhaps TVA should focus on its current efforts 
to sell a nuclear plant, which, by some public accounts, is 
being sold for $36 million after investing $5 billion. $5 
billion, and you're going to sell it for $36 million. Or 
perhaps you need to look at continuing to work on the cleanup 
of the Kingston plant coal ash dump that actually contaminated 
drinking water of over a million people.
    So I guess my concern here today is, what is the priority? 
Is the priority affecting the property rights of so many people 
that are here and watching, or is it what TVA was originally 
designed for, and that was, to produce energy and to do flood 
control?
    So I'm anxious to hear some of the testimony today. I look 
forward to, what I would say, a robust discussion as we look to 
hopefully resolve this particular issue. And again, I thank the 
witnesses for their participation.
    And I recognize the ranking member for his opening 
statement.
    Mr. Connolly. Thank you, Mr. Chairman. And thank you for 
your concern about this very discrete issue, and for the 
remove--on the subject of the removal of all nonnavigable 
houseboats and floating houses from the reservoirs within the 
jurisdiction of the TVA 30 years from now.
    Most are familiar with the TVA, which, by the way, was a 
great success story of government investment in an 
underperforming region during very difficult economic times, 
and, by and large, a great success story about what--the power 
of government to do good, and to stimulate economic activity 
and create jobs, and rescue a region that otherwise would have 
been left behind.
    And I think--I think it's important, in an era where all 
too often, we hear rhetoric about the hobnail booted government 
on our necks, and government can't do anything right, that's 
not true, and it's not true in a very important part of the 
country, part of which encompasses my State of Virginia.
    TVA is now a self-funded agency, supplying 9 million 
Americans and businesses with low cost electricity across seven 
southeastern States. The agency has a long history of 
supporting the economic development and prosperity of residents 
and businesses in Alabama, Georgia, Kentucky, Mississippi, 
North Carolina, Tennessee, and Virginia, areas where, at least 
if I had my chance, I'd be reminding people about the good 
government can actually do. Don't get too carried away with 
that smaller government thing, because that's not how your 
region advanced.
    And it attracts $7.8 billion of direct investment alone 
last year. I think that's a pretty important and impressive 
track record.
    Today's hearing on floating houses highlights a lesser-
known responsibility of the TVA. In 1933, when Congress created 
the agency, it provided TVA with broad jurisdiction to regulate 
obstructions that affect navigation, flood control of public 
lands across, along, or in the Tennessee River or any of its 
tributaries.
    Privately-owned nonnavigable houseboats and floating houses 
have been located on agency reservoirs since at least the 
1950s. And despite a ban on new construction since the 1970s, 
these structures have proliferated, numbering over 1,800, with 
only half of them holding a permit, according to TVA.
    Now, many have asked why TVA has not enforced its own 
prohibition for nearly 40 years, but Mr. Chairman, I'm 
encouraged that since his appointment in 2012, Mr. Johnson, 
TVA's CEO, has acknowledged the problem and has now moved to 
try to address what he perceives as a problem.
    The new rule would impose an eventual ban on existing 
nonnavigable houseboats and floating homes in 30 years. It 
would also require new environmental and safety standards until 
that time. I guess I would propound two principles from my 
perspective. One is, that the status quo's unacceptable. There 
are inherent safety problems, inherent pollution problems. You 
know, people--we have to strike a balance, but--that's the 
second point, we have to strike a balance. There are people who 
live and are where they are, and we've got to take that into 
account and we've got to be sensitive, as you indicated, Mr. 
Chairman, to their plight, their condition, their assumption 
that they were grandfathered in. And on the other hand, we also 
have a broader responsibility to the public that, you know, you 
don't get an ear infection when you go in the lake or the river 
because of uncontrolled waste coming from these structures; you 
don't put yourself at risk of electrical shock because we're 
not being as careful as we could be about how wiring is 
connected to these structures.
    So, you know, we have a genuine challenge, but I think we 
have to proceed in a balanced way, and I think we--certainly 
the chairman has done, I think, an eloquent job of advocating 
for those who will be affected directly, and that's not a 
trivial matter.
    And so I look forward to this hearing, Mr. Chairman, 
especially to hear from the TVA about how are they approaching 
that balance, how are we making sure that we are caring for all 
of our citizens, including those who will be directly affected 
some time over the next 30 years by this rule, and the 
challenges you face in trying to implement that. So I'm glad 
we're--I'm glad we're having a hearing that tries to do both, 
look at the rule as objectively as we can, but also advocate on 
behalf of our constituents, who certainly will be affected, 
some of them very adversely by this rule, when and if it goes 
into effect.
    Thank you, Mr. Chairman, for having this hearing.
    Mr. Meadows. I thank the gentleman. And I will make an open 
invitation that the next hearing will actually be a site 
hearing on one of these beautiful reservoirs. How about that? 
We'll look at that.
    So I'd like to hold the record open. We'll hold it open for 
5 legislative days for any member who would like to submit a 
written statement.
    We'll now recognize our panel of witnesses. I'm pleased to 
welcome Mr. William Johnson, the President and CEO of the 
Tennessee Valley Authority. Welcome, Mr. Johnson; Ms. Laura 
Sneed, founder of the Fontana Families for Floating Houses. Ms. 
Sneed, welcome; Mr. David Monteith, the vice chairman of the 
Swain County Board of Commissioners, welcome, Commissioner; Mr. 
Michael Wilks, president of the Tennessee Valley Floating Home 
Alliance. Welcome, Mr. Wilks; and Mr. Michael Butler, chief 
executive officer of the Tennessee Wildlife Federation. 
Welcome, Mr. Butler. Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify, so if you would please rise and raise your 
right hand.
    You can tell a lot about an individual by his phone ring, 
so----
    Do you----
    Mr. Johnson. It wasn't me.
    Mr. Meadows. No. I know it wasn't.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    All right. Let the record reflect that the witnesses have 
answered in the affirmative. We thank you.
    In order to allow time for discussion, I would ask that you 
try to please limit your oral testimony to 5 minutes, but your 
entire written statement will be made part of the record.
    So, Mr. Johnson, we'll recognize you for 5 minutes.

                       WITNESS STATEMENTS

             STATEMENT OF WILLIAM (BILL) D. JOHNSON

    Mr. Johnson. Chairman Meadows, Ranking Member Connolly, 
members of the committee, good morning. I'm Bill Johnson, the 
president and CEO of the Tennessee Valley Authority, and I 
appreciate the opportunity to be here this morning to talk 
about this policy.
    I've been in TVA about 4 years. Prior to that, I was in the 
utility business for many decades in North Carolina, and I have 
a great fondness for that State and the people who live there. 
Still consider myself a Tar Heel.
    You know, TVA is a unique organization. In many respects, 
it's like a traditional investor-owned utility, but it has some 
differentiating responsibilities. Our statutory mission has 
three priorities: the first is, deliver affordable, reliable 
power; to create sustainable economic growth; and then to 
steward our region's natural and cultural resources. And over 
the last 83 years, we've had a number of legacy issues that 
we've had to deal with, and the TVA board is starting to deal 
with those issues.
    The issue of floating homes didn't develop overnight, it 
can't be fixed overnight, but TVA and the TVA board have a 
responsibility to deal with issues like this.
    So a little bit about TVA. We provide electricity to more 
than 9 million people in seven States, including the chair and 
the ranking member's home States. We receive no taxpayer 
funding, but we do make tax equivalent payments, and last year, 
we provided about $1.5 million in equivalent payments to Swain 
and Graham County.
    Now, we never actually encouraged the construction of 
floating homes or nonnavigable houseboats. What we did do in 
the 1970s was recognize the fact that we had them. We 
grandfathered existing structures after the fact by issuing 
about 900 permits, so these structures didn't have to be 
removed immediately. We also, at times, prohibited new 
structures. We did this in the form of a regulation that has 
been published in the Code of Federal Regulations since 1978. 
These permits gave no right to remain on the reservoir in 
perpetuity, and TVA believed these structures would actually 
disappear over time. And I don't know how that assumption was 
made, but it was obviously an incorrect assumption.
    Many of the 1970-era structures have been now transferred 
to new owners or modified. And the problem was compounded by 
inconsistent or lax enforcement of the TVA policy, with the 
result that the number of floating homes actually doubled.
    Several years ago, we got very concerned about some 
environmental and operational problems with these houses, and 
also about the proliferation of them. We actually found some 
marketing data about a 200 floating-home subdivision to be 
built right in Knoxville, Tennessee, and we saw a couple of 
things like this, so we began a thorough policy review, public 
input process under the National Environmental Policy Act, and 
we identified, we had about 1,800, I think 1,836 exactly, 
floating houses on the reservoirs. We took great care to 
consider all perspectives during the public input process. A 
lot of people urged us to remove the houses immediately. They 
argued that if a citizen built a house in a national forest or 
a hunting lodge in a national park, these would be removed 
immediately.
    Others expressed concern about safety and environmental 
issues, gray water, anchoring, electrical connections. 
Structure owners and marina operators were generally receptive 
to better regulation, but obviously wanted the structures to 
remain.
    We estimated in the NEPA process that if we did nothing, 
the number of floating houses would, again, double over the 
next 30 years. We got input from the Federal Advisory Committee 
on Natural Resources, FACNR, which has a gubernatorial 
appointment from each of the States we are in. That board 
advised a 20-year sunset period. So I think there's a general 
consensus by all parties that health, safety, and environmental 
standards have to improve for these houses. So after the 
review, the TVA board approved a policy to establish new safety 
and environmental standards for existing structures.
    As had been noted, the policy also prohibits new floating 
houses, which technically have been prohibited since 1978. It 
requires all floating houses to be removed from the reservoirs 
within 30 years. So we believe the extensive sunset period 
helps mitigate, helps balance the impact on the floating 
homeowners. I do want to note that concerns that Chairman 
Meadows expressed actually helped move that sunset from 20 to 
30 years.
    For us, alternatives to the sunset provision imply 
indefinite personal property rights for a select few on a 
public resource. And neither TVA nor the TVA board believe it 
has the authority to create personal property rights in 
publicly-owned resources, and we think the Congress is really 
the only body that has the right to do that.
    So with that, I'll look forward to answering your 
questions. Thank you.
    [Prepared statement of Mr. Johnson follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Mr. Meadows. Thank you, Mr. Johnson.
    Ms. Sneed, you're recognized for 5 minutes.


                    STATEMENT OF LAURA SNEED

    Ms. Sneed. Mr. Chairman and members of the committee, I 
want to thank you for the opportunity to share my perspective 
on the impact of TVA's decision to sunset floating homes. I'm 
Laura Sneed, and I'm the cofounder of Fontana Families for 
Floating Houses, and I'm also a member of the Tennessee Valley 
Floating Home Alliance. I'm also a wife and a full-time working 
mother of two boys and two grown step-children.
    Prior to moving to Cherokee, North Carolina, I grew up in 
Minnesota with memories of time spent at the lake. All I wanted 
was for my children and future grandchildren to have similar 
life experiences, and floating homes allowed us to do that.
    As we were an expanding family, my husband, Eric, and I 
purchased two modest grandfathered pre-1978 nonnavigable 
houseboats on Fontana Lake. In February 2006, the TVA announced 
they were recommending a 20-year sunset provision based on 
their recently completed Environmental Impact Statement. This 
was an involuntary removal of 1,836 floating homes from the TVA 
reservoirs, and included the 918 previously grandfathered 
homes. I was completely shocked and devastated, as I never 
expected my family would lose our homes. Ultimately, the TVA 
board voted for a 30-year sunset, but the financial and 
emotional impacts have been felt immediately.
    This decision has created pain and anxiety from so many 
U.S. citizens with varying income levels, races, ages, and 
political party affiliations. These homeowners are not only 
from North Carolina and Tennessee, but also travel from 
Florida, Georgia, Illinois, Indiana, Kentucky, Ohio, Oklahoma, 
South Carolina, Virginia, and West Virginia. On Fontana Lake, 
many homeowners are also enrolled members of the eastern band 
of Cherokee Indians, including my husband and my children.
    As responsible homeowners and frequent users of the lake, 
most of us are not against reasonable regulations. The majority 
of homeowners are worried about the proposed annual fee of 
$0.50 per square foot for nongrandfathered and modified homes. 
If the fees were to apply to our homes, there would be a 50 
percent increase in our costs to legally moor them.
    According to the TVA, up to 20 to 30 percent of the homes 
will be removed after these go into effect. That's up to 550 
families who are going to lose their American dream.
    The sunset will also have a negative impact on all our 
local economies, and may destroy the family-run businesses of 
our marinas. According to the Alarka boat dock owner, Tony 
Sherrill, homeowners make up to 50 percent of his revenue.
    When one couples the loss of income with the extreme annual 
drawdown of Fontana, which puts the marinas and homes actually 
on the ground for several months, they may not be able to 
diversify and survive. Without the marinas, the already-limited 
lake access will significantly decrease, and that will be a 
huge detriment to the public.
    The TVA has cited concerns in their EIS justifying the 
removal, including homes moored on the marinas and electrical 
and water quality issues. In reality, only about two homes are 
not moored in the marina limits. At Fontana, homeowners don't 
have shore power. We do, however, pay monthly mooring fees and 
have contracts to pump our raw sewage. Ironically, the TVA did 
not conduct or include any water quality studies in their 
report. Fortunately, in 2006, an extensive study was performed 
on Fontana showing that the water quality was generally 
excellent. As a steward and user of the lake, I care deeply 
about our environment. And as a protective mother, I would 
never allow my babies to swim in the lake if it was not safe.
    The most recent concern raised by the TVA officials involve 
the private use of a public resource. This implies the 
ownership of a floating home is somehow a social concern of 
fairness driven by privilege. In Swain County, there are 171 
houseboats with a taxable value of $3.5 million. That averages 
out to less than $21,000 per home, which is less than a brand-
new pontoon boat. Technically, everyone who uses the lake is 
privately using a public resource. Should the TVA also ban 
boats, as everyone cannot afford one? We worked hard and bought 
our homes. Should we all lose them because someone else didn't 
get the exact same opportunities? We know life isn't fair, but 
everyone is just trying to live the American dream. If 
everything in this country was regulated in an effort to 
balance wealth and property, we'd be another failed communist 
State, which is not the principles this Nation was founded on.
    The TVA also claimed that they're sunsetting floating homes 
in the interests of the people. Prior to the TVA board meeting, 
we started an iPetition that received over 3,700 signatures and 
900 comments. In addition to public support, Congressman 
Meadows, and Senators Burr and Tillis, have introduced 
legislation to allow them to stay. Seven Congressmen and women 
from Tennessee sent the TVA a joint letter in favor of the 
homes. The eastern band of Cherokee Indians, the Tennessee 
State legislature, and numerous local counties have all passed 
resolutions opposing the TVA's sunset. The TVA board has chosen 
to ignore all of these public officials, in spite of the fact 
they are voted in by the people and serve the interests of the 
people.
    In conclusion, the recent actions of the TVA board are a 
clear example of government overreach that will have a negative 
impact on our local economies, small businesses, and American 
families. My family followed the rules, paid the fees, have our 
permits, and brought our homes up to decent standards, yet we 
too are being unfairly punished and going to lose something we 
legally have the right to own.
    Although the TVA is a government entity, I ask, who is 
overseeing their actions and who is holding them accountable? 
The TVA reservoirs are built for the people of the United 
States, and as citizens served by that mission, we just want to 
continue to enjoy them as we have done for decades.
    Thank you.
    [Prepared statement of Ms. Sneed follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
 
    Mr. Meadows. Thank you, Ms. Sneed.
    Commissioner Monteith, you're recognized for 5 minutes.


                  STATEMENT OF DAVID MONTEITH

    Mr. Monteith. Congressman Meadows, committee members, thank 
you for the opportunity to letting us come today and testify of 
how important houseboats are on Fontana Lake. I would like to 
thank you, Congressman Meadows, for this opportunity, 
especially. This is very, very devastating to Swain County if 
we have to lose these.
    Ladies and gentlemen, my name is David Monteith. I'm a 
Swain County Commissioner. I'm here today to let you know how 
the removal of houseboats from Fontana lake would affect the 
health of Swain County and Graham County. I also chair the 
Fontana Lake Waste Recovery, which wrote the ordinance not only 
for Swain County, but for seven States for TVA. I also went 
with TVA and presented to 47 other States this ordinance to 
make this work everywhere, because it does work.
    Fecal coliform went from over 12,000--or 1,200, down to 
less than 35. But in 1943--we're going to talk about in 1943, a 
national park was added to Swain County. This took an 
additional 44,000 acres of land. Over 3,000 citizens then lost 
their homes. Today 86 percent of Federal land is--is owned by 
the Federal Government. Only 14 percent is taxable for Swain 
County. Folks, that's hard to exist and work with with a 14 
percent, and taking these houseboats off the lake would be 
devastating for that.
    In the midst of World War II, TVA took more than 11,000 
acres of land from Swain County and Graham County to build 
Fontana Lake. It was to be helped to use as a war effort. The 
people of Swain County were told the power was needed to help 
end the war and to build a bomb which would help end the war, 
yet the Swain County citizens were forced to leave their lands.
    Legal actions was taken that said they have to do so. If 
they don't want to, they've still got to do so, they will take 
and condemn land, but we have Judge Yates Webb held in the 
district court back in the 1950s, that this was illegal, 
against the Constitution of the United States, to take and 
condemn land, but we lost schools, we lost cemeteries, we lost 
Simmons grave, we lost settlements, churches, post offices, 
hotels, boarding houses, grocery stores, train depots, side 
tracks, ferries, hunting lodges, doctors, midwives, hospitals, 
blacksmith shop, orchards, grist mills, gas stations, sawmills, 
spice dens.
    These are things that Swain County lost. And, again, we 
lost because of not only the TVA part of this, an additional 
44,000 acres, we had already lost from the first national park 
the same thing again. We lost over 6,000 people because of 
what's going on today, and we just--we need--enough is enough. 
It don't need to be continued.
    As you plainly see, the efforts for changing have been 
served. Houseboat owners are asked to be forced off. This would 
lose Swain County over $3 million of valuation, $12,000 just to 
the economy of Swain County. And that, again, is devastating 
when you only have a 14 percent tax base to work with. If Swain 
County loses houseboats on Fontana Lake, we will lose, as I 
said, $12,000 in taxes and over $3 million in valuation. And 
that don't count the other side of the lake, Graham County. 
They will double the same thing that we do. So that's how much 
the western North Carolina area will lose. 86 percent, as I've 
said, of Swain County is Federal land.
    Fontana Lake Waste Recovery has cleaned the human waste out 
of Fontana Lake. We have brought it down from 1,400 CC's down 
to less than 35. This was written because, you know, local 
doctors told us how filthy Fontana Lake was because of 
houseboats, but there was nothing there to enforce it, so we 
wrote an ordinance to make it enforceable and got houseboat 
owners involved in doing just this one thing, and it's brought 
it down to less than 35. So that's how clean the lake is today, 
and we're very proud of it. TVA's proud of it, because they 
adopted it to other States and other lakes, so they know the 
effects of what has happened to Swain County.
    So I do appreciate the consideration of this committee to 
help us to keep Fontana Lake clean; not only Fontana Lake, but 
other communities. Thank you.
    [Prepared statement of Mr. Monteith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Meadows. Thank you, Commissioner.
    Mr. Wilks, you're recognized for 5 minutes.


                 STATEMENT OF MICHAEL T. WILKS

    Mr. Wilks. Mr. Chairman, honorable members of the 
committee, ladies and gentlemen, it is an honor and a privilege 
to sit here before you this morning representing the Tennessee 
Valley Floating Home Alliance. We're a group of floating 
homeowners, marina operators, renters, and people who enjoy the 
recreational resources of the Tennessee reservoirs.
    On May 5th, 2016, the TVA officials recommended the so-
called alternative V2 to the TVA board of directors for 
adoption from among several other options outlined in the 
Environmental Impact Statement. TVA commissioned for the 
purpose of dealing with floating homes--the floating home 
issue. Under alternative V2, TVA would approve existing 
floating houses that met new minimum standards and would allow 
for the mooring with permitted--within permitted harbor limits, 
but also would establish a future sunset date, at which time 
all existing floating homes must be forcibly removed from the 
TVA reservoirs, including previously permitted nonnavigables.
    Based on its officials' recommendation, the TVA board 
adopted alternative V2, but in doing so, extended the sunset 
period from 20 to 30 years.
    Why now, after almost 40 years of inactivity, did the TVA 
want to take such a Draconian approach to the issue? Why harm 
the people who believed that they were in compliance? Why harm 
local economies that rely on tourism dollars? Why not regulate 
and allow marina owners, who the TVA has entrusted to be 
stewards of the harbors, to monitor these structures? Why 
hasn't the TVA done its job?
    Based on inaccuracies and exaggerations, the TVA painted a 
picture to the public that floating homeowners represented a 
basket of deplorables, squatters, polluters, and those taking 
the waters as their own, all to justify the removal of floating 
homes. TVA officials failed to inform the public and, to some 
extent, the board, that 98 percent of all floating homes are 
moored within the confines of marina harbors in waters leased 
by the TVA. Floating homes do not represent an unacceptable 
taking of public waters for private use, as TVA actually leases 
these waters, in which these vast majority of floating homes 
are moored, to marina owners. Marina owners pay TVA a fee to 
lease these waters, and floating homeowners, in turn, pay 
marina owners to sublease a mooring space. In order to be 
moored in a marina harbor, floating homeowners must contract 
with either the marina owner itself, or a qualified wastewater 
disposal company for the proper disposal of wastewater.
    The TVFHA represents many stakeholders in this issue, not 
only from Tennessee and North Carolina, but also from States 
such as Georgia, Ohio, Indiana, Illinois, Florida, Arizona, 
Kentucky, and Virginia. Floating homeowners travel to 
reservoirs for weekends, or a week or two of vacation.
    Many local people believe that the TVA would do nothing as 
usual. The TVA makes rules that they never follow or enforce, 
was the sentiment of many. The TVA was mandating this forced 
removal, and this time the TVA apparently meant it.
    In an April 2016 meeting of the TVA Regional Resource 
Stewardship Council, Ms. Rebecca Tolene, TVA vice president of 
natural resources, stated that she was, quote unquote, 
``hellbent on removing floating houses.'' During the scoping 
process involved in the EIS, there were many comments related 
to the inconsistencies of the TVA. Marina operators, like 
Debbie Samples, stated on a June 24, 2014 public meeting that 
she spoke to a TVA official around 1997 and was told it was 
okay to build a floating home in her marina, and that the TVA 
was going to allow marinas to do what they wanted within the 
harbors. There's many--there are stories like Maryanne and Tom 
Lefker, who built a floating home after talking with a TVA 
official, who led them to believe that the TVA was not 
regulating these structures anymore. Others reiterated hearing 
the same sentiments from the TVA.
    Now these owners and others are to be levied fees, and at 
the end of 30 years, would be required to pay for the forced 
removal of their floating home from the lake.
    Marina owners stand to lose 40 percent or more of their 
revenues, which will be difficult to recover, forcing many to 
close.
    Revenues to counties in Tennessee would suffer 
significantly from the sunset. Campbell County, with 11 
marinas, which collectively generate an estimated $33 million 
of the total 54.24 million in tourism dollars spent in the 
county. Personal estimates of over $8,000 per year for basic 
floating home costs, which over a conservative estimate number 
of 400 units, brings $3.2 million to the Campbell County 
economy alone.
    This is an exclusive--this is exclusive of the purchase of 
fuel, groceries, dining, and other items. Tourism is the only 
growth industry in the region since 2008, and now jobs would be 
lost. Campbell County Mayor E.L. Morton states, ``This is a 
slap in the face to the citizens of the county, which has lost 
jobs in the mining industry as a result of the TVA not buying 
coal mined in the region.''
    Our family made a choice to purchase a floating home on 
Norris Reservoir because of the cleanliness of the water, the 
beauty of the mountains, and the heritage and the friendliness 
of its people, bringing truth to the term ``southern 
hospitality.'' This is not the only story of its kind, as 
evidenced in the public comment sections at two TVA board 
meetings, letters to State and Federal legislators, and over 
600 comments in a petition presented to the TVA.
    While some on the TVA board believe that the additional 
time the board granted to floating homeowners would 
significantly mitigate the lost value suffered by owners, the 
real impact is today. TVA staff has belabored the point of 
floating homes, not unlike boats, depreciate in value over 
time, but if they are well-maintained or improved, they are 
likely to maintain or increase their value. Those that have 
sold have done so at values often below cost. Retirees like 
Janet and Gary Benzinger or Ray and Hazel Beal, a retired 
couple in their 80s, either lost thousands of dollars on the 
sale, or couldn't sell it at all.
    TVA staff wrongly assumed that these structures were built 
and handed down for generations into perpetuity. Our findings 
show that these structures are bought and sold on an average of 
5 to 8 years as financial demands and family situations change.
    Marina owners have commented in meetings with the TVA that 
they have complied with the regulations regarding sewage and 
blackwater. Marinas or private contractors that pump out these 
vessels required by the TVA to keep records, including gallons 
pumped and where the waste is disposed of. These records are 
rarely, if ever, inspected by the TVA.
    After approximately 40 years of what has been essentially 
regulatory neglect and often conflicting regulatory guidance 
from various TVA officials, the TVA apparently made the 
internal decision that it would be easier to force off all 
floating homes from the lakes than to create fair, regulatory 
policies and maintain effective compliance programs to enforce 
them, and if floating homeowners, marina owners, local 
governments lost tens of millions of dollars in uncompensated 
home value and tax revenue in the process, it was no concern to 
the TVA.
    Apparently, in an effort to build its case for the 
decision, the TVA commissioned an EIS that was heavy on 
conclusions to justify the removal of floating homes, but light 
on the research to back up those conclusions. For example, the 
EIS concluded that floating homes hurt the water quality of TVA 
lakes, but did not include any real research to back up those 
conclusions, and, in fact, left out water quality research that 
showed excellent water quality on Fontana Lake.
    Those not from the Tennessee Valley are unaware of the 
contradictions that TVA has created. Is the TVA a government 
agency or a private corporation responsible for driving profits 
from the sale of electricity? They're also unaware that the 
board is comprised of presidential appointees and that millions 
of dollars in salaries are paid to the executives of this 
Federal corporation.
    The board realized that it had a real decision to make, 
which required more thought than usually needed. They didn't 
fathom that over 50 floating homeowners, marina owners, and 
others would travel some 8 hours to State the position that the 
vast majority of floating homes are not as they are described 
in the EIS. We give much credit to Chairman Joe Ritch, and 
especially Directors Michael McWherter and Marilyn Brown, for 
their attention. Directors McWherter and Brown held a position 
of holding off a decision, and directing the staff to further 
investigate the matter. This would allow time to correct the 
admitted blundering the TVA had done in the past.
    We can all agree that there needs to be a registration or 
inventory of existing structures, including mooring systems, 
waterlines, electric cables in the various marinas. There needs 
to be--this needs to be done in conjunction with the marinas 
and organizations such as the TVFHA. Concise and sensible 
safety requirements must be developed, including a plan for 
future recreational use of structures like these.
    Where we have a difficulty in reaching a meeting of the 
minds of the TVA is in the notion that floating homes represent 
an unresponsive, unacceptable private taking of public waters. 
You see, marinas on Norris Reservoir represent only 1.9 percent 
of the total surface area of the reservoir.
    At the suggestion of the board, we and other groups have 
met with the staff to work on proposed regulations and develop 
a plan moving forward. The TVA recognizes the TVFHA as a voice 
and a mechanism to communicate new requirements and work 
towards better stewardship. We have asked the TVA to be 
included as a representative from our organization on the RRSC, 
so there can be a fair and balanced discussion on stewardship 
matters. We have also committed to an ambassador program with 
marinas and homeowners to help communicate the standards and 
assist in the registration and compliance measures, thus 
reducing costs for the TVA.
    The TVA has an opportunity to turn its negative perception 
into a positive means for persons of the United States to 
utilize the resources in a positive and sustainable manner 
without removing those structures within compliance. Like the 
floating home associations in California and Washington, where 
floating homeowners and their government regulators have 
learned how to peacefully co-exist, there is an opportunity to 
work together here in a nonpartisan manner if the TVA would 
just avail itself of it.
    Thank you.
    [Prepared statement of Mr. Wilks follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    Mr. Meadows. Thank you, Mr. Wilks.
    Mr. Butler, you're recognized for 5 minutes.


                 STATEMENT OF MICHAEL A. BUTLER

    Mr. Butler. Thank you, Mr. Chairman, Ranking Member 
Connolly, and members of the committee for allowing me to 
address this important issue. I've spent a large portion of my 
life on the reservoirs that TVA manages, traveling across the 
entire river valley, and spending a lot of time on most of the 
reservoirs out of the 49, witnessing firsthand the importance 
of the public resources and the values they bring to the entire 
State of Tennessee, where I live.
    In my capacity as CEO of the Tennessee Wildlife Federation, 
I have sat across the table from TVA and challenged them hard 
on taking care of our public resources, but I've also sat on 
the same side of the table with them in helping them accomplish 
the same.
    The issue of nonnavigable floating houses on public 
reservoirs is not new, as well spoken here by the other 
testimony. We find that in 1971, the first prohibition was 
placed on new, nonnavigable floating houses in the Federal 
Register. But what's remarkable to us is that out of the 1,836 
floating homes on the reservoirs, 930 of them occurred after 
the second prohibition was placed on the construction and 
location of these on our public reservoirs.
    Today we are here to review a new prohibition on floating 
houses once again. This new chapter builds on previous ones, 
apparently catalyzed by discussions of plans to insight entire 
new subdivisions of floating homes on our public reservoirs.
    The public reservoir system in Tennessee is the backbone 
and attraction of a strong outdoor recreation economy, and 
their conservation is why we support the recently approved TVA 
board policy.
    Public resources only have value inasmuch as they are 
available to the public. What makes this possible is rational 
use provided by law, and TVA manages these public resources 
under Section 26(a) of the TVA Act. As such, we believe these 
public resources should not be made--should not be impeded or 
made de facto private property by allowing permanent floating 
houses on public waters. Floating houses exclude the public 
from being able to utilize the water they occupy in particular, 
and can negatively impact public uses of the larger public 
reservoirs as a whole.
    While some argue against this policy, saying that these 
structures help the local economy, which they do, the reality 
of the economic impacts of floating houses is much more dynamic 
than just that simple analysis. As stated in the 2016 EIS, 
floating houses may work to depress shoreline property values 
and negatively impact surface recreational opportunities. Add 
to this that floating houses are being used as rental 
properties, and this further exacerbates these negative 
impacts.
    Generally speaking, our federation is not opposed to 
businesses operating on public waters or lands, as long as the 
activities or services being offered do not degrade the natural 
resources involved, and that they do not exclude other 
legitimate uses of these public resources. In our opinion, 
floating houses do not pass either of these tests.
    Waste, navigation, and electrical safety issues as stated 
are also well-identified concerns. I cite the recently 
completed EIS again, which says, ``An increase in the number of 
floating homes is expected to exacerbate water pollution 
problems, adding to the cumulative wastewater loading to 
surface waters.'' Leaking of human and household waste into 
public reservoirs is a hazard to aquatic life and recreational 
users as well.
    Who is responsible for this compliance? And if the new 
policy is removed, is this removal effectively an unfunded 
mandate to the Tennessee Department of Environment and 
Conservation to enforce these measures?
    So while some will argue that wastewater and electrical 
safety can be regulated, the sheer fact that hundreds of these 
structures have been placed on our public reservoirs without 
permitting or oversight over a handful of decades in direct 
violation of Federal rules makes a clear statement that the 
rules and standards designed to protect the public's interest, 
and these resources are not being followed. What evidence do we 
have that this will change? If past history is a predictor of 
future performance, it won't.
    Lastly, and of great importance to millions who love to 
fish our public reservoirs, we believe the presence of floating 
houses diminishes the experience of and deters use by anglers 
who seek to use these public waters and fisheries resources, 
especially when they are occupied. In Tennessee, these anglers 
have a constitutional right to hunt and fish. And with allowing 
de facto private ownership of these reservoirs, it is arguable 
that this is in direct conflict with these activities and 
arguably this right.
    We believe that no citizen should have a presumption of 
ownership of public waters, especially when it comes at the 
expense of other citizens with equal claim to ownership and 
use. There are good reasons why we cannot build a home in a 
national park, and there are equally good reasons why these 
structures were prohibited and regulated starting in 1971.
    I would like to close by noting that we believe this policy 
is squarely aligned with TVA's 26(a) authority. This is a tough 
issue, no doubt, but we find that TVA addressed it 
comprehensively and professionally, choosing a policy that 
protects the greatest public interest and our public 
reservoirs.
    Thank you, Mr. Chairman and Ranking Member Connolly, for 
this opportunity.
    [Prepared statement of Mr. Butler follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Mr. Meadows. Thank you, Mr. Butler, for your testimony. And 
I would be remiss if I didn't recognize your daughter, who is 
here out of school for a civics lesson, so I want to recognize 
her.
    Mr. Butler. Yes, sir.
    Mr. Meadows. And we'll give you that letter that you 
requested so that it's an excused absence.
    Mr. Butler. Thank you, Mr. Chairman.
    Mr. Meadows. The chair recognizes the vice chair of the 
subcommittee, the gentleman from Michigan, Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chair. And I assume you'll also 
give a selfie opportunity with the young lady to make sure that 
it's accurate.
    I appreciate the panel being here today. I must admit, as 
a--when I left high school and majored in forestry and land 
management, I didn't end up in that field, but I love the 
outdoors, love stewardship of our resources, but I also--I 
also, as a patriotic citizen, understand that this country is 
ours, including the waterways. And too often, we get a mind-set 
that appears that government will control that, it's government 
lands that we give, at times, back to the use of people. I 
don't like that idea at all.
    I live in the beautiful Irish Hills area of Michigan, 
beautiful waterways, lakes, and we have some houseboats on some 
of those lakes. We also have residences that surround these 
lakes that go right up to the water in times. We found ways the 
deal with it. We found ways of taking septic systems out, 
putting grinder pumps, pumping up to municipal sewage systems, 
dealing at times with taking out wells and putting in public 
water, but we tried to keep people on the lakes and using the 
lakes as well.
    We have a public entity here with the TVA. And, Mr. 
Johnson, I appreciate the fact that you want to carry out 
regulation appropriately, but the TVA has a staggering amount 
of debt, which is a Federal Government corporation and 
connected to the Federal deficit as well. Taking this into 
account, wouldn't you consider compensation packages worth 
millions of dollars for TVA executives excessive? We're talking 
about the fact top executives at TVA being paid nearly 15 times 
as much as the salary for President Obama and nearly 30 times 
the salary of the U.S. Secretary of Energy. Is it really 
necessary?
    In context now, talking about controlling water resources 
that, as Mr. Monteith explained, took away a lot of land, a lot 
of resources, a lot of buildings and structures from people. 
And while providing a service, certainly, yet the excessive 
costs here, and we're talking about concerns about people 
living on houseboats. So let me ask that question again.
    Mr. Johnson. Sure. Well, actually the compensation of 
people at TVA is specified in a Federal statute. It's in the 
TVA Act, measures how it is to be constructed, and it was a 
recognition in 2005 that TVA is actually the largest utility in 
this country, I think. We operate seven nuclear plants. It is 
like running a large IOU. And if you need to get the talent and 
skills of people to do that, you need to pay them. And we make 
about half or less of peers in private industry. So compared to 
other government employees, we are better paid; compared to 
industry, we are not.
    Mr. Walberg. Well, you're not private industry.
    Mr. Johnson. Right.
    Mr. Walberg. You're government employees. And here we're 
talking about families, families that have put up a houseboat 
for a purpose in life that really comes with the reality of 
life, liberty, and prosperity--or happiness, as it was put. And 
we have regulatory agencies that continue to expand while being 
in huge debt. And we're concerned about this particular issue, 
and not finding a way to address the values and lifestyles of 
these people.
    Let me go to Ms. Sneed. In your testimony, you recount how 
you followed the rules, you paid thousands of dollars in fees, 
you received Section 26(a) permit from TVA. How'd you feel when 
the board announced its policy to remove all floating homes 
from the TVA reservoirs within 20 years, and now 30 years?
    Ms. Sneed. Well, when I received my postcard in the mail, I 
was kind of going through my mail, and I read it, and I was 
just--just taken aback. And I was shocked, because, I mean, we 
were--we did it--you know, we did it right. These houses--our 
houses have been there probably since the 1950s, and the fact 
that they're taking those away too, and just taking them all 
away, it's just--it's devastating for us, and then getting to 
know everyone else, you know, the people that aren't 
grandfathered. It's hurting a lot of people. And at first, I 
didn't even know what to do, and so it took us, like, a month 
and a half to get going, but--you know, that we needed to fight 
this, but I just--it was devastating. And, I mean, we've--
Fontana is kind of a cash, you know, lake, so our house values 
are not as high as others. So we put a lot of money in our--
from our savings account into these houses, you know, to 
replace the black floats and, you know, to make our sinks pump 
into a septic tank and, you know, to make them, you know, more 
environmentally friendly and safe for our children, because 
there was a beaver that lived under our house and ate our 
floor. And so to, you know, basically lose a lot of money from 
your savings account and everything, it just--it was--it was 
devastating.
    Mr. Walberg. And future plans as well.
    Ms. Sneed. Well, yeah. I mean, I wanted my kids to be able 
to swim on the lake. You know, North Carolina is very different 
than Minnesota. You can't just buy a cheap cabin and, you know, 
bring your family up and just walk down to the lake. And, you 
know, we looked at properties, but it's really expensive. It's 
very limited on Fontana. Most of the land is either Forest 
Service or national park. There are some private opportunities, 
but they're very expensive compared to, you know, buying land 
in Swain County normally, you might be able to buy, what, an 
acre for $10,000. A quarter, half acre is $500,000 on the lake, 
so it's not proportionate to what the people make in the area 
and it's--so, I mean, the floating homes allow normal people to 
actually use the lake.
    Mr. Walberg. Okay. Mr. Wilks----
    Mr. Wilks. Yes, sir.
    Mr. Walberg. --you argue that floating homes do not 
represent an unacceptable taking of public waters for private 
use. Could you explain that further?
    Mr. Wilks. The marinas are--pay a lease fee to the TVA. 
Contrary to their accusation, or their assumptions out there 
that--there's over 98 percent of these floating homes or these 
structures are within marina confines. They've already leased 
an area to a private entity, to a private marina.
    Mr. Walberg. Define ``marina confines'' for me, if you 
would. What's that look like?
    Mr. Wilks. They're within a harbor or set harbor limits by 
the TVA.
    Mr. Walberg. And that's already leased to the owners of the 
marina?
    Mr. Wilks. Yes, it is, sir.
    Mr. Walberg. So the marina really decided what they want to 
do with their space, correct?
    Mr. Wilks. Correct.
    Mr. Walberg. And they've given that to floating homes----
    Mr. Wilks. They've given----
    Mr. Walberg. --houseboats.
    Mr. Wilks. --some of that area to floating homes, some of 
it to their own docks for, you know, private slips for----
    Mr. Walberg. Fishing purposes.
    Mr. Wilks. For fishing purposes, for, you know, storage of 
boats, for storage of production houseboats. You know, they're 
docked all along--or within those harbors.
    Mr. Walberg. And so that's, you said, 90 percent----
    Mr. Wilks. Yes.
    Mr. Walberg. --generally speaking.
    Mr. Wilks. Yes. Actually by TVA estimates, it was 98 
percent.
    Mr. Walberg. Of all----
    Mr. Wilks. Roughly----
    Mr. Walberg. 98 percent of leased property--98 percent of 
the houseboats are on already leased property.
    Mr. Wilks. Yes.
    Mr. Walberg. That isn't taking away anything that wasn't 
given by TVA already.
    Mr. Wilks. Correct.
    Mr. Walberg. Okay. Well, Mr. Chairman, I appreciate this 
hearing. This is illuminating for me to some degree, but I 
appreciate your efforts to move forward on this and try to find 
a suitable answer to make sure that resources are cared, we 
want that, but also that personal choices and personal liberty 
and the opportunity for doing something with your lifestyle on 
remaining lands that aren't controlled somehow, some way, by 
the Federal Government, that seems to be getting more and more, 
that we're given these opportunities. So thank you.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the ranking member, Mr. Connolly.
    Mr. Connolly. I thank my friend, the chairman, and I thank 
him for this hearing.
    I must take issue with Mr. Walberg. I mean, unlimited, 
quote, ``personal liberty,'' you want to see where that can 
lead, let's look at the Detroit River that poisoned the people 
of Flint, Michigan. There is a role for Federal Government, 
there is a role for government regulation. It protects people. 
And I cannot abide the assertion of a philosophy that virtually 
leads to unlimited pollution of waterways.
    Mr. Walberg. Would the gentleman yield?
    Mr. Connolly. Briefly.
    Mr. Walberg. Briefly. I'm not asking----
    Mr. Connolly. Only because I have 5 minutes. I'm sorry. I 
didn't mean that to be rude.
    Mr. Walberg. I'm not asking--I'm not asking for unlimited--
--
    Mr. Connolly. Okay.
    Mr. Walberg. --at all, but I'm asking for some type of 
reasonable care for that personal liberty that we all believe 
in. And I don't see this here, and especially when I see an 
entity that is so huge in debt.
    Mr. Connolly. All right.
    Mr. Walberg. Thank you.
    Mr. Connolly. Reclaiming my time, I say to my friend, I 
agree with that. In fact, I said that in my opening statement. 
I think is a matter--we have to strike a balance here between 
that and the need to protect public waterways or semipublic 
waterways, but I think we have to be careful in how we express 
that, because, at least on our side of the aisle, we get off--I 
mean, and the people you're trying to protect, if we frame it 
in such stark terms, I think we lose support we otherwise might 
get, because, certainly, this member with a strong 
environmental record is not unsympathetic to the plight, 
nonetheless, of the individuals who are affected here, who 
thought they were making decisions that would be protected or 
not challenged, and I'm totally sympathetic with that plight. 
So anyway.
    Ms. Sneed, I want to make sure I understand your testimony. 
How long have you lived on this floating house?
    Ms. Sneed. We bought the first house in 2014, and then the 
second house we bought in 2015. So the first house, we actually 
bought from a family that their real house burned down, and 
they used it as an asset.
    Mr. Connolly. All right. So you're relatively new?
    Ms. Sneed. We are.
    Mr. Connolly. And where did you come from?
    Ms. Sneed. I'm from----
    Mr. Connolly. Oh. You said Minnesota.
    Ms. Sneed. From Minnesota. I met my husband working on a 
project. He's from--he's from Cherokee, North Carolina, and----
    Mr. Connolly. Okay.
    Ms. Sneed. --married and moved down here.
    Mr. Connolly. All right. Now, do you have a permit?
    Ms. Sneed. We do. We have two.
    Mr. Connolly. You do. Okay. Would you agree that anyone 
who's on the lake, or the reservoir, ought to have a permit, 
because that's what's required by law?
    Ms. Sneed. We do. And so in North Carolina, the houses that 
don't have TVA permits are registered as North Carolina boats, 
and a lot of them have steering wheels and they can actually 
drive them around. So in our first spot, the previous neighbor 
actually would take theirs out and drive the lake like a 
houseboat.
    Mr. Connolly. So I understand, but I'm trying to get at 
sort of--I was in local government, like Mr. Monteith. 14 years 
I did re-zonings, a lot more than you probably have done in a 
lifetime, because it's Fairfax County, right? So I did 
thousands of re-zonings. And it is not up for opinion whether 
the government has a right to insist on permitting and 
licensing and certain regulations with respect to lot size and 
what you can build and if you can build and sewer lines and all 
that stuff. I mean, that's what we did for a living to protect 
the public.
    Ms. Sneed. Right.
    Mr. Connolly. Now, sometimes opinions can clash about how 
far government goes? And do you really need to be doing that? 
And I found myself on both sides of that as a local elected 
official. Sometimes I saw government at its worse, and 
sometimes, thank God, I saw it at its best. And all I'm trying 
to get at here is you certainly--because I don't want to 
misconstrue your testimony. You agree that it is within the 
purview of TVA to issue permits, that you--if you're going to 
have a floating house, you've got to have a permit?
    Ms. Sneed. Yes. That is correct.
    Mr. Connolly. Okay. And you heard Mr. Johnson's testimony 
that unfortunately when they grandfathered it in, even those 
that previously before you got onto the reservoir, that were 
without a permit, they finally decided, let's make them all 
legal and we'll grant 900-and-something permits and start over 
so that nobody's illegal. That's our solution. In the past, 
that's what they did. You heard that?
    Ms. Sneed. Yes.
    Mr. Connolly. And what happened?
    Ms. Sneed. People continued to build, because it was not 
regulated.
    Mr. Connolly. That's right.
    Ms. Sneed. But other people----
    Mr. Connolly. Well, it was technically regulated, but they 
didn't enforce it.
    Ms. Sneed. Correct.
    Mr. Connolly. Yeah. So we went from 900 to 1,800, which 
would suggest that half the homes, floating homes were or are 
illegal, that is to say, without a permit. Is that correct, Mr. 
Johnson?
    Mr. Johnson. That is, in fact, correct, yes.
    Mr. Connolly. Okay. So a lot of your neighbors are there 
illegally.
    Ms. Sneed. Sort of, because they have--they're registered 
as boats on our lake.
    Mr. Connolly. So there's a sort of getting around the 
permit requirement.
    Ms. Sneed. I mean, they can drive them around as boats, so, 
we chose to get permits.
    Mr. Connolly. Right.
    Ms. Sneed. Other people----
    Mr. Connolly. But you--at least you know----
    Ms. Sneed. Yes.
    Mr. Connolly. --TVA, that is the governing authority here 
under law----
    Ms. Sneed. Uh-huh.
    Mr. Connolly. --considers them illegal, right?
    Ms. Sneed. We just went out of our way to make sure that--
--
    Mr. Connolly. No. I know. You're clean with the Lord. Good, 
good. All right. But I think you would agree as a citizen, 
right, we can't have people exercising illegal options, right? 
We all want to be within the law.
    Ms. Sneed. Uh-huh.
    Mr. Connolly. Okay. And within the law is our protection. 
It's your protection. You're legal. I can't do anything.
    Ms. Sneed. But they are taking us off.
    Mr. Connolly. Hold that in abeyance. I'm talking about day-
to-day stuff. Whereas, if I operate outside the law, not only 
am I at risk, but so is the public, because I may be leaking or 
violating other things that you have gone to great trouble not 
to do. You got--from what I understand from your testimony, you 
have gone to great extent and expense to make sure that you are 
an environmentally-sensitive floating home. So you're not 
polluting the waterway you are situated in. Is that correct?
    Ms. Sneed. Yes.
    Mr. Connolly. Would that be a fair--okay.
    So, now, Mr. Butler. Going to balance, I know you conceded 
that this is a tough decision, but can't we find some middle 
path between ``you're out of here in 30 years'' which instantly 
has an impact on not only psychology, but on home values and 
protecting a natural resource, which I agree with you, has to 
be protected and it's the responsibility of TVA. And we heard 
from Mr. Wilks. Part of the problem here is the inconsistency 
of TVA's enforcement and that is as bad as a bad law.
    If it is on the books and it's the law, it needs to be 
enforced consistently so that everybody understands. The 
expectations are uniform across the board. And TVA hasn't done 
that, according to Mr. Wilks, and no one has gainsaid that 
testimony. And I think that's a very fundamental problem. 
Because, Mr. Johnson, one of the problems here is, once you're 
gone, will your successor enforce this or care? Are we once 
again going to be up in the air about what's expected, wink, 
blink and what is the law and all that?
    So all right, Mr. Butler, my time is up, but I would like 
you to at least help address the balance because I didn't hear 
a lot of sympathy in your testimony. I mean, I heard passionate 
advocacy for the environment, which I share. But there are 
human beings who are going to be affected here, most of whom, 
through no fault of their own, find themselves caught in this 
conundrum. And they may not want to leave. They may not--they 
certainly don't want that cloud hanging over their heads of 
uncertainty. And can't there be a middle way that allows us to 
have an environmental solution while still allowing people to 
stay in their homes, and exercise the personal liberty Mr. 
Walberg talked about?
    Mr. Butler. Well, we are certainly empathetic to the plight 
of the folks that have invested their hard-earned dollars into 
those structures. We would look at this in a couple of 
different ways. One is, we find it remarkable that there would 
be a presumption of permanent residency on public resources. In 
other words, we understand that TVA didn't follow up on their 
'78 policy and enforce it, per your points. But we also think 
the citizens have a responsibility to make sure that they are 
registered. When I buy a car, I have a responsibility to go get 
it registered.
    Mr. Connolly. We have established that, and Ms. Sneed 
doesn't take any issue with that. She agrees. She has done 
that.
    Mr. Butler. But the problem is, Mr. Connolly, is that half 
of these facilities ignored that and took no responsibility. 
And if that is the historical context, we are concerned that 
the future context could be similar. Now, having said that, we 
responded in our testimony and in our response to TVA in their 
EIS process, the NEPA process, around the alternatives that 
they gave. There are other potential alternatives that could be 
based around ownership of the bottom of the reservoirs, in our 
opinion. Potentially, you could look at areas where flowage 
easements were purchased. They are private property rights 
arguably owned by individuals where TVA has the right to flood, 
but they don't own the surface or subsurface right under the 
water.
    If you anchor to that, then there might be an argument made 
that that could be a different situation, versus if there are 
public lands underneath those waters that were taken in any 
other manner. And I think you could find some potential 
alternatives there, although we have not examined those, and we 
have not discussed those with TVA.
    Mr. Connolly. Well, I'm glad you clarified that because 
when you started talking about the solution being at the bottom 
of a reservoir, I got really nervous for Ms. Sneed and 
everybody else.
    All right. Thank you, and I hope your daughter got a bit of 
a taste of the wondrous democracy we have and being able to 
express our opinions and not worry about it. Mr. Chairman, over 
to you. Thank you.
    Mr. Meadows. I thank the ranking member. Commissioner 
Monteith, did you want to comment? I saw you--you looked like 
you wanted to jump in on that before I start my series of 
questions. I will recognize myself for asking questions, but 
I'll let you comment if you wanted to do so.
    Mr. Monteith. TVA, they determined, first of all, how many 
houseboats can be put in a harbor. You can't just go down and 
throw in 10,000 in a harbor. They tell TVA, they tell the dock 
owners how many they can put, and that's all they can put. 
Okay. Also, the TVA law on houseboats, you know, they're 
navigable, these are navigable laws are NC navigable laws that 
they told you. You've got TVA numbers and you've got NC 
numbers. Those NC numbers that Ms. Sneed talked about, they 
have a motor on it, it can view 180 degrees. You can see it. It 
can be moved around because, that's the way North Carolina law 
requires it. The other ones at TVA don't. They stay put, solid. 
But, again, how many is in a harbor is what it is. And TVA 
determines what goes on that lake. And we abide by that, not 
only with the harbor, but cleaning the lake up and keeping it 
clean to where it is clean on that lake. I mean----
    Mr. Meadows. All right.
    Mr. Connolly. Mr. Chairman.
    Mr. Meadows. Go ahead. Sure. Go ahead.
    Mr. Connolly. Just following up on what.
    Mr. Meadows. I'll yield to you.
    Mr. Connolly. Well, because we didn't give Mr. Monteith an 
opportunity because I think it was pretty dramatic when you 
said you brought the pollution levels down----
    Mr. Monteith. Yes, sir.
    Mr. Connolly. --from 1,400 to 35.
    Mr. Monteith. Yes, sir. Exactly right.
    Mr. Connolly. And if the chairman is--I think we would love 
to hear a little bit, how did you do that?
    Mr. Monteith. We have done it because we got grants from 
TVA, $90,000. We got in grants from Western Carolina University 
at $20,000. We got grants from DENR of $340,000; grants from 
RC&D, State again, of $345,000. We got these grants together. 
We took that money and we bought Fontana Lake Waste Recovery, 
because there was no ordinance enforcing the lake. We wrote the 
ordinance so it could be enforced. Okay? We took the grant 
money and we bought each boat dock a pump-out boat. We built 
each boat dock a floating platform that would hold 1,000 
gallons of waste. They could take their dock, go in, pump out 
her houseboat and take it over and put it into the holding 
tank, and then the State--or not the State, but the county 
would come by on the banks and pick it up and haul it out, just 
like a sewage on Bryson--in the county. That's what we done to 
make the lake clean. That's why.
    And not only that, but as I said, TVA sent me to other 
States to present what we done so they can do the same thing, 
and these other seven States are doing the same thing. We don't 
have private land to where they are running sewer lines and 
water lines and power lines under the lake. That's not on 
Fontana Lake. It's Federal on one side, Forest Service, TVA and 
you are in a harbor and limited to how many you can put in that 
harbor and they mandate that to us. Okay. Did that clear that 
up?
    Mr. Connolly. It does. Thank you.
    Mr. Monteith. Good deal.
    Mr. Meadows. So thank you.
    Mr. Butler, let me come to you, because you said you have 
traveled on most of the 49 reservoirs. So you have enjoyed it. 
You fished--I assumed you fished. Your testimony was that you 
have enjoyed the reservoirs. Is that correct?
    Mr. Butler. Yes, sir.
    Mr. Meadows. All right. So in doing that and enjoying 
those, when was the last time you were on Fontana?
    Mr. Butler. It would have had to have been probably in the 
late 1990s.
    Mr. Meadows. All right. So you haven't been there for over 
20 years?
    Mr. Butler. Around there. Maybe a little less.
    Mr. Meadows. But so you just prefer not to come to North 
Carolina. That's okay. You're from Tennessee. I got that. So 
you're enjoying the reservoirs in Tennessee?
    Mr. Butler. Primarily, yes, sir.
    Mr. Connolly. I say to both of you, Virginia is gorgeous.
    Mr. Meadows. Yeah. You ought to see Michigan. I can hear 
it. We can see where this is going. So Mr. Butler, if you have 
been enjoying it, and so at this point, you would say that 
recreation on TVA reservoirs is pretty good. Right?
    Mr. Butler. I think it is. I think we have some challenges.
    Mr. Meadows. So let me ask you. Let me cut you off. I have 
only got limited time. If it's good, how has the 1,826 floating 
homes affected your enjoyment, your private enjoyment? Because 
your testimony, your sworn testimony is you've enjoyed it.
    Mr. Butler. Sure.
    Mr. Meadows. And I want to know how these 1,826 floating 
homes has affected your private enjoyment, Mr. Butler.
    Mr. Butler. Well, they haven't, but I'm not here----
    Mr. Meadows. Oh, okay. So they haven't. So then your 
concern is not with the 1,826 boats that we have there, or 
floating homes that we have there. It would be if we increased 
it. Is that correct?
    Mr. Butler. My concern is with the people I represent, with 
the Wildlife Federation.
    Mr. Meadows. Oh, okay. All right.
    Mr. Butler. And their use of the reservoir.
    Mr. Meadows. So it is not really about private enjoyment as 
much as it is your official capacity?
    Mr. Butler. Their private enjoyment.
    Mr. Meadows. Oh. So you are saying you can enjoy it, but 
they can't.
    Mr. Butler. No. I'm saying that the private enjoyment of 
those people that I represent, like the Tennessee Striped Bass 
Association that recreates primarily on Norris Reservoir.
    Mr. Meadows. All right. I'm a fisherman. I'm an angler. Do 
you know where I catch most of the fish? Under docks and under 
floating homes. Wouldn't you agree with that? You know, you are 
a wildlife guy.
    Mr. Butler. That's why in my testimony, I particularly 
stated the impact of when they are occupied, because when they 
are occupied, people don't like----
    Mr. Meadows. Oh, you scare the fish away when they are 
occupied?
    Mr. Butler. No. They don't like--they don't like getting in 
the personal space of the people that are on the docks.
    Mr. Meadows. Mr. Butler, this is sworn testimony, so I--how 
many fish have you talked to?
    Mr. Butler. Zero, sir.
    Mr. Meadows. Okay. So let me make a point. This is sworn 
testimony, and here's what I'm asking you to do.
    Mr. Butler. Sure.
    Mr. Meadows. Let's identify the barriers to fixing this 
problem, and let's dispense with the pontification of what may 
or may not happen in the future. I'm willing--in fact, Mr. 
Johnson, wouldn't you agree that I spoke to you and your chief 
of staff on numerous occasions? You once, your chief of staff 
on numerous occasions.
    Mr. Johnson. That's more than accurate.
    Mr. Meadows. Okay. All right.
    Mr. Johnson. We've heard a lot from you.
    Mr. Meadows. You've heard a lot from me. Did I not tell you 
that I was willing to put in some reasonable restrictions in 
permitting and actually find a process? In fact, I said we 
ought to use Mr. Monteith's model and make that a requirement 
for all of the reservoirs in terms of working that over; that I 
wanted to find some common ground. Did I not tell you that?
    Mr. Johnson. Absolutely you did.
    Mr. Meadows. All right. So if we're looking, and Mr. 
Butler's private enjoyment hasn't been affected to date. In 
fact, I guess, Mr. Butler, since you're saying this is a 
private taking--is that what you're saying? That was what your 
sworn testimony was, this was a private taking? I heard that.
    Mr. Butler. I don't know if I used that exact word, but 
it's possible. Yes, we would say this is a private exclusion of 
other public uses.
    Mr. Meadows. All right. So would a marina be a private of 
other public use?
    Mr. Butler. If it goes through the processes that TVA----
    Mr. Meadows. Would a dock, would a dock be? Because it is. 
You know, here is the thing is, we are talking about floating 
homes, and your testimony would be inconsistent if that was the 
premise of what you are talking about because all of those 
would be private takings of a public entity. Would they not? So 
you're saying get rid of everything on the lake?
    Mr. Butler. No, sir, we're not.
    Mr. Meadows. Well, then, why make the decision----
    Mr. Butler. Because these are being established as 
residences----
    Mr. Meadows. Oh, okay.
    Mr. Butler. --versus day-use boats that are typically for--
--
    Mr. Meadows. So how many people live there 365 days a year?
    Mr. Butler. I have no idea.
    Mr. Meadows. Okay. I can tell you, because I don't normally 
ask questions that I don't know the answers for, and the answer 
is zero. So it's not a residence. So are you saying that we 
need to get rid of docks and marinas too? Is that your 
testimony?
    Mr. Butler. I definitely would believe that we need to be 
smart about locating docks and marinas so they don't impede 
upon these values that I mentioned in testimony.
    Mr. Meadows. What values is that?
    Mr. Butler. Access, navigation.
    Mr. Meadows. All right. But we haven't heard any--Mr. 
Johnson, in fact, I think in his testimony, has said that there 
is not an access problem or a navigation problem. Isn't that 
correct, Mr. Johnson?
    Mr. Johnson. I don't believe I said that.
    Mr. Meadows. Well, you have public statements to that 
effect. So is there a navigation problem?
    Mr. Johnson. Yes. There are, at some of these marinas, 
navigation problems.
    Mr. Meadows. All right. So let me ask you this: I want to 
go here because is it harder to move around a floating home 
that is stationary than a bass boat that is going 40 miles an 
hour?
    Mr. Johnson. I was not a physics student, but harder to 
move a houseboat. They are moored.
    Mr. Meadows. Is it easier to avoid a houseboat that is 
stationary than a moving boat that's going 40 miles an hour?
    Mr. Johnson. Typically, yes, but----
    Mr. Meadows. Typically yes, what? It's easier to go around 
a floating home.
    Mr. Johnson. Yes, it's easier to avoid a standing object 
than a moving object. Yes, but the anchorages of some of these 
do pose navigation problems. I have some pictures here if you 
would like to see.
    Mr. Meadows. When was the last time you were on Fontana?
    Mr. Johnson. Within the last 6 weeks.
    Mr. Meadows. Okay. And so do you see any anchorage problems 
on Fontana?
    Mr. Johnson. I would say Fontana is probably the best in 
terms of quality, environmental safety, anchorage. I think 
that's----
    Mr. Meadows. So why would the board not take what we are 
doing in Fontana and make it applicable for the other 49 
reservoirs as a good example of good regulation, like my good 
friend from Virginia is talking about. Why would you not do 
that?
    Mr. Johnson. Well, I think that is part of the plan to do 
that, which is to----
    Mr. Meadows. You mean, in the next 30 years----
    Mr. Johnson. That's right.
    Mr. Meadows. --until we get rid of them?
    Mr. Johnson. There are two points here. Yes, we need to 
improve our enforcement of standards, set standards, health, 
environmental standards. The reason I got interested in this a 
couple of years ago is we had people in one of the reservoirs 
get so sick from swimming in sewage that they had to go to the 
hospital.
    Mr. Meadows. Was that in Fontana?
    Mr. Johnson. Wasn't Fontana.
    Mr. Meadows. Didn't I request that we just exempt some of 
the ones where you are not having problems? Didn't I tell you 
that? Why don't we just exempt it if we are not having a 
problem?
    Mr. Johnson. My second point, which I actually do believe a 
permanent right to be there, if we have no sunset ability, we 
have created a permanent property right in public resources and 
I'm not the only one who thinks this. Federal District Court in 
Western North Carolina, the Honorable Woodrow Jones, said even 
a single houseboat moored to Federal land interferes with the 
government ownership rights.
    Mr. Meadows. So are you saying this is Federal land? Is 
that your testimony?
    Mr. Johnson. Sure, it is.
    Mr. Meadows. So what part of water is Federal land?
    Mr. Johnson. Well, the land under----
    Mr. Meadows. I only know of one person who walked on water.
    Mr. Johnson. The land under it, certainly.
    Mr. Meadows. Is it land or is it water?
    Mr. Johnson. The land is Federal land. The water is 
entrusted to the care of TVA under the TVA Act and, of course, 
public owns the right.
    Mr. Meadows. So what role does the EPA have in cleanliness?
    Mr. Johnson. I'm not sure.
    Mr. Meadows. Do they have any role on TVA waters?
    Mr. Johnson. I think the water quality is a matter of State 
law and State enforcement, I believe.
    Mr. Meadows. Well, State and Federal. Okay. Okay, so, when 
you look at that, are they monitoring the cleanliness of the 
lake?
    Mr. Johnson. I think everybody who draws water out of any 
lake or any river monitors it routinely, yes.
    Mr. Meadows. All right. And so is this environmental 
problem on Fontana?
    Mr. Johnson. As I said, Fontana has led the way here in 
environmental standards and other things.
    Mr. Meadows. All right. So was it your staff that 
recommended to the board to take this action?
    Mr. Johnson. Certainly, yes.
    Mr. Meadows. All right. And they did that based on what?
    Mr. Johnson. Two years of study, a number of public 
hearings, comment periods.
    Mr. Meadows. And they did that why? Why? I mean, you don't 
just have a public hearing unless you have an outcry from the 
public, generally speaking.
    Mr. Johnson. Right.
    Mr. Meadows. So how many complaints did you have?
    Mr. Johnson. I can't tell you the number. We had a----
    Mr. Meadows. Well, this is important to you, isn't it, Mr. 
Johnson?
    Mr. Johnson. It is important to me. It is really important.
    Mr. Meadows. And you have got all kinds of staff here.
    Mr. Johnson. Yeah.
    Mr. Meadows. So do you not know how many complaints you 
had?
    Mr. Johnson. No, I can't----
    Mr. Meadows. Can you get that to the committee?
    Mr. Johnson. I'm sure we can.
    Mr. Meadows. All right.
    Mr. Johnson. But we had two issues. We had two issues.
    Mr. Meadows. All right. Did you have over 3,700 complaints?
    Mr. Johnson. I don't know.
    Mr. Meadows. Because we've got a petition of over 3,700 
people who say that they are going the other way.
    Mr. Johnson. Yeah, and I have a survey----
    Mr. Meadows. I will be glad to yield to the gentleman.
    Mr. Connolly. Again, I'm putting on my old local government 
hat. I mean, and we are a big county. I have got 1.2 million 
people I represented. Yeah. Bigger than seven States. But we 
are a complaint-based system.
    Mr. Johnson. Yeah.
    Mr. Connolly. So you don't know how many complaints you got 
about this?
    Mr. Johnson. I'm sure somebody does. I don't particularly 
know.
    Mr. Connolly. Well, I think that's pretty material.
    Mr. Johnson. Well----
    Mr. Connolly. If it turns--bad policy decisions get made if 
we overreact to a handful of complaints. If, on the other hand, 
you have got lots of substantive complaints and concerns that 
were expressed, and I know you had a fact-finding period. 
Right?
    Mr. Johnson. Right.
    Mr. Connolly. But I think that's a pretty material figure 
to get back to us on.
    Mr. Johnson. Yeah.
    Mr. Connolly. Because I'd hate to think that all of this is 
about making three people happy.
    Mr. Johnson. No. It's not about making three people happy.
    Mr. Connolly. But that's the risk of what you've just done 
in answering the chairman. You should know that answer.
    Mr. Johnson. Right, well----
    Mr. Connolly. --coming here, testifying before the United 
States Congress.
    Mr. Johnson. The second part of this, though, is the 
proliferation of new floating homes that we are starting to see 
in marketing materials from developers from other places. And 
that's really the other factor here. As I said, if we do 
nothing----
    Mr. Meadows. So what you're saying is, is that your primary 
concern is that we don't make it any worse than it is now. Is 
that your sworn testimony?
    Mr. Johnson. Well, one primary concern is that we don't 
proliferate this. Another is that we have the right standard, 
and the third is that we don't created private property rights 
in public resources because we dont think we have the power to 
do that.
    Mr. Meadows. Which is it?
    Mr. Johnson. All three.
    Mr. Meadows. Because we can address two of those.
    Mr. Johnson. Yeah.
    Mr. Meadows. So are you saying that you don't want floating 
homes on your lakes?
    Mr. Johnson. I think the floating homes, for a reasonable 
period, is good, but I think if you say they can never be 
sunset; that this is a perpetual right, that is creating 
personal property interest in public resources.
    Mr. Meadows. All right. So you say it's not fair. Is that 
what you're saying? You've had your vice president of natural 
resources say it's not fair. I heard that. So is that your 
testimony too, it's just not fair?
    Mr. Johnson. No. My testimony is, it is not right.
    Mr. Meadows. All right. So it's not right. Is it right to 
condemn the property of landowners and Graham and Swain County, 
and then take it and then try to manage it and make sure that 
they kept--because, literally, what happened in Graham and 
Swain County is you had patriotic Americans who said they were 
going to give up their homes to allow you to produce energy to 
win a war. And now all of a sudden, you're the fairness guru?
    I mean, is that fair? You took their land. Now you're 
trying to tell them to get off of what you took originally. Is 
that fair?
    Mr. Johnson. So I wasn't around when that happened.
    Mr. Meadows. Mr. Johnson, I know you weren't and neither 
was I. But you read, don't you?
    Mr. Johnson. Oh, yes, I read a lot.
    Mr. Meadows. Did you condemn the land and did you take it?
    Mr. Johnson. Absolutely. Absolutely took it to help win 
World War II. There's no question about that.
    Mr. Meadows. And I'm glad we did. And you know what? The 
people of Graham and Swain County are glad you did.
    Mr. Johnson. Yeah.
    Mr. Meadows. And all they want to do is get a little bit of 
it back; all they want to do.
    Now, here is what I want to ask you, Mr. Johnson: Is the 
board, and are you willing to recommend to the board a 
reasonable compromise where we can keep floating homes there? 
Are you willing to do that? Yes or no?
    Mr. Johnson. I'm willing to talk to them about that.
    Mr. Meadows. That's not my question. That's a great----
    Mr. Johnson. Well, that's my answer.
    Mr. Meadows. I'm saying--no, I'm asking you a question and 
it can be answered yes or no.
    Mr. Johnson. Right.
    Mr. Meadows. Are you and your staff willing to recommend to 
the board a reasonable compromise that would allow floating 
homes to remain?
    Mr. Johnson. I say no. I think we have reached a reasonable 
compromise.
    Mr. Meadows. Well, why would you say that? I mean, if this 
is such an unbelievable priority for TVA, why don't you get rid 
of them tomorrow? If it's such an unbelievable--I mean----
    Mr. Johnson. So we have the authority today to remove half 
of them without----
    Mr. Meadows. Okay. I have the authority today to do a lot 
of things, too. And so I'm going to go to the gentleman from 
Wisconsin, allow him to ask some questions. But we will come 
back. Because here is what I'm concerned about, Mr. Johnson. 
It's a double standard. It's a double standard. You know, 
really, when we start to look at all of this, we want to talk 
about fairness, and you are a federally mandated corporation. 
Isn't that correct?
    Mr. Johnson. Yes. Yes.
    Mr. Meadows. So when you look at the TVA Act, what part of 
it was actually in 1933, what, is that when the TVA----
    Mr. Johnson. 1933.
    Mr. Meadows. What part of that actually gave you the 
authority to really manage this particular aspect? Because in 
your opening testimony, it was interesting, you talked about 
what we are supposed to do, power generation, and we are 
supposed to manage natural resources. That was part of your 
opening statement.
    Mr. Johnson. Yes.
    Mr. Meadows. That's not in the Act of 1933. It talked about 
flood control and it talked about power generation. It talked 
about fertilizer and weapons. And it talked about the 
environment, but it was really about reforestation of really a 
place that had all of their timber cut and it never 
contemplated this. I mean, I have read it. I was up until 2 
a.m. Reading the entire, every jot and tittle, so it's not in 
there. And so your testimony is not in keeping with the TVA Act 
of 1933.
    Mr. Johnson. I actually think it is entirely consistent 
with it under section 26(a).
    Mr. Meadows. Well, we will agree to disagree. I'm going to 
go to the gentleman from Wisconsin for 5 minutes.
    Mr. Grothman. Thank you. We will give Ms. Sneed a chance to 
say a little bit.
    How much does your family currently pay in annual fees, 
about?
    Ms. Sneed. So between the taxes, the pump fees and mooring 
fees, it's a little over $2,000 a year.
    Mr. Grothman. And under their new rules, what do you think 
it's going to be about?
    Ms. Sneed. It's going to be a little over $3,000.
    Mr. Grothman. So about a 50 percent increase in one shot?
    Ms. Sneed. It is.
    Mr. Grothman. Whew. That's a lot.
    Ms. Sneed. For our family.
    Mr. Grothman. Okay. How does that affect your family? A 
lot, huh?
    Ms. Sneed. It will, but not as much as some people. I mean, 
there's some people that just have no money and this is--it's 
going to kick them off the lake.
    Mr. Grothman. Wow. You attended a meeting in August a 
little while ago with a floating homeowners and the TVA. And 
they revealed they will lose up to 20 to 30 percent of the 
homes after the proposed regulations and fees go into effect. 
Would that be 4- to 500 families? Is that--that many people are 
going to leave, you think?
    Ms. Sneed. Well, there's going to be the initial permitting 
fees. I think it's either $250 or $500 depending--and they 
still haven't published the regulations, so this is still what 
we are trying to negotiate, too. But so there's that initial 
permitting fee, and then there's going to be the annual fee.
    So between the two, I mean, there's some families that just 
don't have expendable income beyond what they already have that 
will lose their homes. And then there's some homes that just 
won't be able to come up to compliance. There are homes that 
are abandoned and that they haven't been paying their mooring 
fees and they are kind of just off to the side. So those need 
to go. We agree with that. I mean, they have pictures of them. 
But there are starving families that this will affect.
    Mr. Grothman. Okay. My paper here says 360 to 550 families. 
That's a lot of people.
    Ms. Sneed. Correct.
    Mr. Grothman. It is almost like a village. I have a lot of 
villages that aren't that big in my district.
    Kind of big stuff. Can you just give me in general how you 
feel it impacts the sense of community that you have over 
there?
    Ms. Sneed. Yeah. The community on the lakes are, I guess, 
of a time past. I, being from Minnesota had a condo in 
northeast Minneapolis, and I couldn't even tell you the names 
of my neighbors. But on Fontana, I mean, everyone--you just get 
to know your neighbors. I don't know some of them yet, because 
I haven't been to their houses. But, you know, like, our 
neighbors lent us eggs. I was making meat loaf and they had 
chickens. And like, you know, being a city girl it is like, 
wow, you just--we even had a group of fishermen come up to our 
boat and they needed a tool, and we happened to have it. And it 
was just me and my baby at that time, so I was kind of a little 
leery because they had a gun on their boat, but we--you know, 
they just needed help. I gave them help. I gave them the tool 
and they fixed it.
    And, you know, it is a really strong sense of community and 
this event has actually brought a lot of people together. So 
that's one good thing; meeting other people from other lakes 
and then meeting people on our own lakes that would have taken 
a while from different marinas.
    Mr. Grothman. Neat stuff. I will ask Mr. Monteith a 
question as well. They spelled your name is different on my 
sheet than your thing, but I guess Monteith is the thing.
    Okay. In your testimony, or in his testimony, TVA President 
William Johnson testified that quote, ``TVA'' gives--``believes 
giving compliant homeowners until 2046 to continue enjoying 
their homes during the extensive sunset period helps mitigate 
the impact on floating homeowners.''
    As an affected homeowner, what do you feel about that 
statement?
    Mr. Monteith. It is devastating to the homeowner because, 
you know, hypothetically, just say you own a home and you're 
wanting to sell that home and nobody is wanting to buy that 
home as you get older, because it's going to have to come off. 
What is that homeowner going to do as he is up 60, 70, maybe 80 
years old and their family and they want to get rid of that 
home and they can't afford to? Do you know what is going to 
happen to that home? Lightning is going to mysteriously hit 
that home and it's going to burn and sink in the bottom of 
Fontana Lake, and float all over the place. What are they going 
to do? Who are they going to sue? A dead man? I mean, get 
serious. You cannot do something like that. It don't even make 
sense. That's what going to happen to them.
    I mean, I'm just telling you. I mean, you know--let me come 
back and add a statement if I can.
    Mr. Grothman. Sure, absolutely. They said I should ask you 
question. I said they're right.
    Mr. Monteith. In the 1950s, in the 1960s, TVA had 
houseboats all over Fontana Lake. They were not on what we call 
the State side tied up in harbors. They were on Hazel Creek, 
Eagle Creek, Forney Creek, Chambers Creek, tied up all over the 
lake. What did the National Park Service and TVA do? They got 
together and made them take them all off and take them all into 
harbors. And you know, people complied with that, because they 
said it's better to put them in harbors. The dock owners can 
take care of them and they are not scattered all over the lake 
to mess up the fishermen. And everybody was happy with that. 
And that's been working well since that time.
    And you know, and it works. And it's again, what I said, 
limited to how many you can put on that lake. Because you can 
only put, if you own a harbor, you can only put so many. The 
only way you put another one is somebody has got to take it 
off, sell it, or do whatever. And occasionally that happens, 
and somebody new will put a new one in. But most of the time, 
they do like Ms. Sneed did, they just buy one and remodel it, 
and that's what they do.
    Mr. Grothman. Okay, well, I'd like to thank Mr. Meadows for 
holding this. I have got to go back to my other subcommittee, 
but keep your thumb on them.
    Mr. Meadows. I thank the gentleman.
    We are going to go into a second round and actually--but I 
will be very brief in light of my good friend from Virginia. I 
do want to clear up a few things as we look at this.
    One, Mr. Monteith, the proposals that you put forth to 
clean the lakes up in North Carolina that is being used, would 
you say that it's been effective?
    Mr. Monteith. Very effective. Very, very effective.
    Mr. Meadows. All right. Would you see any barriers to 
allowing that to be used as a model for the other 48 reservoirs 
other than Fontana? Any barriers?
    Mr. Monteith. I think it should be used as a model.
    Mr. Meadows. All right. Mr. Johnson, do you see any 
barriers to being able to use that in any of your other 48 
reservoirs?
    Mr. Johnson. Just the execution and enforcement, but the 
idea and the standards are good.
    Mr. Meadows. All right. So if a county of jurisdiction was 
willing to handle the enforcement of that policy, as Graham and 
Swain County have both agreed to do on Fontana in our area, if 
a county was willing to take on that responsibility from TVA, 
do you not see that as a reasonable compromise because you have 
a government entity willing to enforce regulations for the 
health, safety, and welfare of the public, which they have as a 
primary responsibility already. Do you not see that that is 
something that TVA could actually transfer to the local 
governments within the counties to maintain and protect?
    Mr. Johnson. I will have to say a theoretical yes to that. 
I really hadn't thought about that hard, but----
    Mr. Meadows. Well, I suggested that originally. I said, you 
know, if I have got Graham and Swain County willing to take on 
the responsibility, let me just--Mr. Johnson, let me be clear. 
They already do.
    Mr. Johnson. Yeah.
    Mr. Meadows. They already do. So how many game wardens do 
you have on your lakes and reservoirs?
    Mr. Johnson. We don't have game wardens.
    Mr. Meadows. Okay. How many law enforcement officers do you 
have on Fontana?
    Mr. Johnson. Depending, time to time, a couple.
    Mr. Meadows. When was the last time they were on Fontana?
    Mr. Monteith. I have not seen them.
    Mr. Meadows. Mr. Monteith, have you seen----
    Mr. Monteith. I have not saw them in years.
    Mr. Meadows. In years. So are they just sleeping under a 
tree, or are they going to some other reservoir?
    Mr. Johnson. They are no longer in uniform so you might not 
be able to see them because----
    Mr. Meadows. Oh, so we have got undercover law enforcement 
officers?
    Mr. Johnson. They are not undercover. They are not 
undercover. They just don't wear police uniforms.
    Mr. Meadows. So how many citations have they given on 
Fontana?
    Mr. Johnson. I don't know, but they don't write health 
citations. These are----
    Mr. Meadows. So what do they do?
    Mr. Johnson. Protect property. These are Federal----
    Mr. Meadows. How do they do that without writing citations?
    Mr. Johnson. I just said, they don't write health 
citations.
    Mr. Meadows. So how many citations have your law 
enforcement guys written on Fontana in the last 4 years since 
you've been there?
    Mr. Johnson. I don't know, but we can find out.
    Mr. Meadows. Well, you have got a staff. You've got your 
chief of staff behind you. I'm sure he knows. You can turn 
around and ask him. I'll give you time.
    Mr. Johnson. You've dealt with him. I'm pretty sure he 
doesn't know.
    Mr. Meadows. He doesn't know?
    Mr. Johnson. No, he won't know.
    Mr. Meadows. Oh, he won't know.
    Mr. Johnson. No.
    Mr. Meadows. Are you telling him not to know, or are you--
--
    Mr. Johnson. No. Oh, no, I don't have to tell him that.
    Mr. Meadows. Okay.
    Mr. Johnson. He legitimately doesn't know.
    Mr. Meadows. So since, you know, we--Ms. Sneed was worried 
about guns.
    Mr. Connolly. I hope you understand how that just came 
across?
    Mr. Johnson. Yeah.
    Mr. Connolly. I mean, if I said that to my chief of staff, 
he would fire me. Don't ask him. He don't know.
    Mr. Meadows. So Mr. Johnson, let me ask you this: What kind 
of firearms do they carry?
    Mr. Johnson. Nine-millimeter Glocks and carbines in their 
vehicles.
    Mr. Meadows. All right. And so they use those so they don't 
write citations. They just use their firearms.
    Mr. Johnson. They never use their firearms.
    Mr. Meadows. So they just----
    Mr. Johnson. I'm aware of no discharges of a weapon by a 
TVA policeman in my time there.
    Mr. Meadows. Okay. I think you're getting my point.
    Mr. Johnson. Yes.
    Mr. Meadows. My point is the--is the county not better 
suited to manage the health, safety and welfare of the 
reservoirs that are within their jurisdiction than you are?
    Mr. Johnson. Well, and certainly, I should say this, most 
of our property, the primary law enforcement is the local 
sheriff.
    Mr. Meadows. Oh, I know that. I talked to Sheriff Cochran 
of Swain County.
    Mr. Johnson. Right, so--yeah.
    Mr. Meadows. He has already told me that. And so----
    Mr. Johnson. Oh, yeah.
    Mr. Meadows. --is it not a reasonable request that we do 
this for the benefit of the floating homeowners? Or do you have 
such a burr in your saddle that you want to get rid of them no 
matter what, that a reasonable compromise is not something that 
you are willing to look at?
    Mr. Johnson. No. First of all, to the first question, is 
this a good idea to have local enforcement? I think I said yes 
to that. I would like to ponder the exact execution, but yes, I 
do think that putting in standards, all of those things is 
good. I, and the TVA board especially, thinks this idea of 
permanence is just something they cannot do.
    Mr. Meadows. But they got that recommendation from staff.
    Mr. Johnson. Well, they got a whole bunch of 
recommendations in the EIS.
    Mr. Meadows. So have they heard from more people that are 
in favor of floating homes or against floating homes?
    Mr. Johnson. They have heard, in the public listening 
sessions, they have heard from more people who are in favor of 
floating homes. Survey----
    Mr. Meadows. And in terms of the complaints and petitions, 
have they heard from more people that are in favor of floating 
homes or against it?
    Mr. Johnson. Actually, in the comment period in the EIS, in 
the comment period in the land policy, we heard from many, many 
more who are opposed to any residential development.
    Mr. Meadows. Well, that's because you have got your good 
friend, Mr. Butler, from the Federation, that sends out a mass 
email to all of their activists that say that they do that, or 
are they actual local constituents?
    Mr. Johnson. They are all people who live in the Tennessee 
Valley.
    Mr. Meadows. All right. So what you're saying is you got 
more responses from that?
    Mr. Johnson. Yeah.
    Mr. Meadows. But yet, I asked you a question about how many 
complaints you had originally, you couldn't answer that. But 
you know, for a fact, your sworn testimony is this?
    Mr. Johnson. Yeah. So I don't know exactly how many 
complaints we have. I do know when we do surveys, when we do 
EIS, when we do land policy, much stronger opposition to any 
residential development on or around the water than support for 
it.
    Mr. Meadows. All right. So let me ask you this: What's your 
primary responsibility and main mission at TVA? What's the 
primary, the number one thing, if the--if I'm asking you a 
number one thing, what would it be?
    Mr. Johnson. I'd say we follow the statute. There are three 
priorities in the statute.
    Mr. Meadows. Of which managing natural resources is not one 
of those. I've looked and I would challenge you to give that 
statute to me. If you go to TVA.gov right now, you can look at 
what your statutes are. Environmental is at the very last part. 
What is the number one?
    Mr. Johnson. Probably the number one is low-cost, reliable 
electricity.
    Mr. Meadows. Exactly. Why is that? Because in the TVA Act, 
didn't it kind of stipulate that the CEO had to have some kind 
of utility background?
    Mr. Johnson. Yeah, sure.
    Mr. Meadows. Yeah. And so that's your number one priority 
focus. So why are we spending so such time on floating homes if 
that's your number one--are you making a profit?
    Mr. Johnson. No, we make no profit. We make no profit.
    Mr. Meadows. So how much do you get paid?
    Mr. Johnson. About $4.5 million a year.
    Mr. Meadows. All right, with bonuses, and other things, 
what's your total compensation?
    Mr. Johnson. About $4.5----
    Mr. Meadows. All right. So $4.5 million to make no money. 
Are you losing money?
    Mr. Johnson. No. No, we are actually in very good financial 
shape. The cochairman said the debt is high----
    Mr. Meadows. How many billions of dollars of unfunded 
liabilities do you have for retirement?
    Mr. Johnson. Somewhere in the neighborhood of $6 billion.
    Mr. Meadows. So how can you say that you have $6 billion in 
unfunded liabilities for retirement, and that you are in good 
financial shape?
    Mr. Johnson. We've taken the debt down $1 billion in the 
last----
    Mr. Meadows. I didn't say the progress.
    Mr. Johnson. No, no----
    Mr. Meadows. I'm saying, how can you say that?
    Mr. Johnson. Well, because we are in good financial shape.
    Mr. Meadows. Only because you have what? Could you sell 
your company if you didn't have the backing of the Federal 
Government?
    So if you didn't have a $500 million credit line that just 
got renewed 2 weeks ago, or a $1.6 billion credit line from the 
Federal Government, could you sell your corporation to a 
private entity?
    Mr. Johnson. We couldn't, but you could.
    Mr. Meadows. But assuming that President Obama and I agree 
that that would be a good idea, because as you know, you 
pointed it out to me, that he wants to do that. So assuming 
that we both agree that that's a good idea, would somebody buy 
it?
    Mr. Johnson. Sure. He--the administration----
    Mr. Meadows. Without--with the current liability?
    Mr. Johnson. Sure. Every entity has unfunded liabilities 
that go well into the future. Ours is no different than anybody 
else's. And if you look at our financials----
    Mr. Meadows. Well, it is different. I have looked at your 
financials, Mr. Johnson. You know that I have.
    Mr. Johnson. Sure.
    Mr. Meadows. So tell me about this nuclear plant that you 
have invested $5 billion and you now have an offer, I guess, of 
what, $38 million?
    Mr. Johnson. We don't have an offer. We have a minimum bid 
price.
    Mr. Meadows. Minimum bid price. So you have no offers on it 
at this point?
    Mr. Johnson. The period to receive offers hasn't ended yet.
    Mr. Meadows. So you have invested $5 billion and you are 
wanting $38 million for it?
    Mr. Johnson. So a little history. That plant was started in 
1974.
    Mr. Meadows. Don't need the history. I know the history. I 
understand it started before your time. I don't need that. And 
let me just--I'm trying to show that what you got here, is 
you're focusing on 1,826 floating homes when you should be 
focusing on something else.
    Mr. Johnson. I will tell you, I'm entirely focused on 
running TVA. And if you actually look at the record and look at 
the last couple of years, you are going to see tremendous 
improvement. I will put our performance up against any 
utilities in the country. We have reduced our debt. We have 
reduced or spending by 25 percent.
    Mr. Meadows. I--you know, I'm an old utility guy and I 
understand that. I understand where you were. I understand 
where you are, and as I look at that, embarking on selling off 
this asset that you have $5 billion invested in, and you are 
going to sell it off, what is your return on investment?
    Mr. Johnson. There is none. If you----
    Mr. Meadows. Exactly. All right. So who is Scott Fiedler? 
Is it Fiedler, or Fielder? Do you know him?
    Mr. Johnson. I don't.
    Mr. Meadows. Who is your spokesperson?
    Mr. Johnson. Well, we have a bunch of them.
    Mr. Meadows. Well, I have got a quote here from a Scott 
Fiedler.
    Mr. Johnson. Could be. We have----
    Mr. Meadows. Does he work for you?
    Mr. Johnson. If he is a spokesperson for us, he does. We 
have a lot of spokespeople.
    Mr. Meadows. Okay. So he speaks for TVA?
    Mr. Johnson. If he is one of ours, yes.
    Mr. Meadows. Well, turn around and ask him if he is one of 
yours.
    Mr. Johnson. Is he one of ours?
    Mr. Maierhoffer. Yes.
    Mr. Johnson. He's one of ours.
    Mr. Meadows. I'm glad your chief of staff knows something. 
All right.
    Mr. Connolly. Thank God.
    Mr. Meadows. So let me ask you, here is what is concerning 
me. Here's a quote from your spokesperson. And it has to do 
with the $5 billion nuclear power plant that you are selling 
off there that has, what, 1,600 acres along the river? Is that 
correct?
    Mr. Johnson. Yes.
    Mr. Meadows. Sixteen hundred acres along the river.
    Mr. Johnson. Yep.
    Mr. Meadows. TVA says, it isn't particularly concerned 
about what the purchaser does using the site for power 
production or industrial manufacturing or recreation, or even 
residential. It's not particularly concerned about it.
    How do you reconcile not particularly concerned about what 
happens with 1,600 acres along a river with being very 
concerned with what happens with 1,826 floating homes on 49 
reservoirs?
    How do you reconcile the two?
    Mr. Johnson. Yeah, so actually, the sale of that property, 
which will be done in open bid, has a buffer along the river. 
The property along the river is not going to be sold, to avoid 
this very problem.
    Mr. Meadows. All right. So what you're saying is that 
you're not going to let them do anything with the river?
    Mr. Johnson. Right. Keeping a buffer.
    Mr. Meadows. But they can do all kinds of manufacturing 
there, right?
    Mr. Johnson. Sure. We hope they will.
    Mr. Meadows. So in terms of the environment, are you going 
to put restrictions on that?
    Mr. Johnson. There are restrictions on that as a matter of 
Federal and State law. We will enforce that.
    Mr. Meadows. Okay. That's exactly my point. There are 
restrictions on the waters of every single reservoir you have 
that are Federal and state laws. Why do we need you?
    Mr. Johnson. Well, we have a different reading of the 
statute. But as I read the statute, we are responsible for the 
Tennessee River and its tributaries.
    Mr. Meadows. So your spokesman went on to say that really, 
his primary goal was just to sell the property.
    Mr. Johnson. We are holding----
    Mr. Meadows. Was that accurate?
    Mr. Johnson. Yeah. Well, what we are trying to do is to put 
it to productive use since we are never going to build that 
plant and never going to need the power from it, so if there is 
a way to return it to productive use, that would be a good 
idea.
    Mr. Meadows. All right. Have you lobbied Members of 
Congress and Senators up here as it relates to floating homes?
    Mr. Johnson. No. We do not lobby.
    Mr. Meadows. Okay. Have you had meetings with Senators and 
Congressmen as it relates to floating homes, other than me?
    Mr. Johnson. I'm unaware of any. I think we have answered 
some questions from various offices. I think that's the extent 
of it.
    Mr. Meadows. And so your sworn testimony here today, is 
that you did not initiate any contact with any other Member of 
Congress other than myself? Is that your sworn testimony?
    Mr. Johnson. My testimony is----
    Mr. Meadows. I would suggest that you check with your 
government affairs folks.
    Mr. Johnson. I'm about to. My testimony was I have not.
    Mr. Meadows. Okay.
    Mr. Johnson. So may I?
    Mr. Meadows. I'm assuming that it is not you, so has anyone 
done that?
    Mr. Maierhoffer. No, we have had conversations.
    Mr. Johnson. We have had conversations, but we certainly 
haven't lobbied on it.
    Mr. Meadows. Well, that is just a definition of lobby. I 
mean, conversations are lobbying, and I mean, I'm not saying 
you are federally a lobbyist.
    Mr. Johnson. Right.
    Mr. Meadows. But you have initiated responses, right?
    Mr. Johnson. Well, my chief of staff says we haven't, and I 
certainly don't know of any, but we have been asked questions, 
obviously by members of the delegation.
    Mr. Meadows. Sure. And so the members of the delegation, 
are they supportive of your new policy?
    Mr. Johnson. Some are not, and some are not involved.
    Mr. Meadows. All right. So there's no one who is 
supportive. There's some who are saying they are not go to take 
a position, but the others are against it?
    Mr. Johnson. I think that's fair, yeah.
    Mr. Meadows. All right. So you don't care what Members of 
Congress or Senators really have to say about this. Is that 
correct?
    Mr. Johnson. No, that's not correct at all. I do care.
    Mr. Meadows. Well, you are saying that everybody is against 
it.
    Mr. Johnson. Yeah. The difference is I think you all are 
engaged in serving your constituents, as you should. I think we 
are on a little different mission here, which is public 
resource stewardship.
    Mr. Meadows. Okay. Here is what I would like for you to get 
back to this committee. In the priority of public resource 
stewardship----
    Mr. Johnson. Uh-huh.
    Mr. Meadows. Give me the statutes which puts that at the 
same priority as the rest of it. Now, on anything on TVA.gov, 
does it give you the ability to revoke these permits?
    Mr. Johnson. I think when the permits were issued, they 
said there is no property right created here, so----
    Mr. Meadows. Anything on TVA.gov?
    Mr. Johnson. I don't think there is a specific revocation.
    Mr. Meadows. I can tell you, there's not. I have read every 
single word, and there is not anything, not one mention of 
revoking anything. In fact, just the opposite. It says if you 
get a permit, you got a permit. Now, in the 26(a) application 
permit, I've looked at that, you have got some language there. 
But in terms of notice to the public, there is nothing on your 
Web site even today that would suggest you can do what you're 
doing. In fact, it says that we are going to grandfather 
everybody in from 1978 and before. Would you agree with that?
    Mr. Johnson. Yeah. Correct.
    Mr. Meadows. All right. So you're going to get some of 
these things back. We have got a number of questions that are 
there. I'm going to let the gentleman go. Here is my request of 
all of you. You've been writing notes. You've got that. And 
here's what I would ask you to do, and those that are watching 
via Webcast. If there's questions that you have that weren't 
asked, submit them to the committee. We will be glad to ask 
those questions.
    Mr. Johnson, I want to make it very clear. I am very 
concerned that with the public outcry that I'm hearing, that 
other Members of Congress are hearing, that you have seen, that 
this was an arbitrary decision that was not based solely on the 
number one priority that you have, to produce low cost energy 
for the region, to create jobs. If anything, this is a jobs 
killer. And what you've done is you've taken one priority to 
make it higher than the other. And I'm discouraged that Mr. 
Monteith has given you a solution, and your board is not even 
willing to look at that, to use that. It seems to me to be very 
poor decisionmaking when you have a solution that would address 
it right here. You have a solution. And your testimony says 
that Fontana is doing well, right?
    Mr. Johnson. Yeah, I think I said that part of the solution 
is good. It doesn't address the other issue of permanent 
property rights and public resources.
    Mr. Meadows. And so what in the statute gives you the 
ability to control that?
    Mr. Johnson. So we lean on 26(a) in the statute. We have 
some other things. We will get you all of those statutory 
references. But you know, we do a lot of stewardship things. We 
are a Native Americans remains repatriation.
    Mr. Meadows. Well, it's funny you mention that, because I 
know that, and actually, I think you had promised some support 
for the eastern ban, that you would get them support for a 
piece of land in Tennessee, and yet, you haven't really 
followed up on that, Mr. Johnson. No, they don't have the 
letter. I checked this morning.
    Mr. Johnson. Well, I will check when I get back.
    Mr. Meadows. So you will get them the letter?
    Mr. Johnson. Yep.
    Mr. Meadows. All right.
    Mr. Connolly. I would just, if I could parenthetically, Mr. 
Chairman, I'm with you all the way, Mr. Johnson, on the 
assertion that nobody has any permanent squatting rights on 
public land. I'm sorry. You don't. And anyone who asserts 
otherwise is wrong, and the implications of conceding that 
across the country, I mean, so what, I get to build my dream 
house on the rim of the Grand Canyon, or in the middle of 
Yellowstone? I mean, where is that at? Public land is public 
land. However, so let us stipulate that. And let's assert it 
properly. But, meanwhile, we have got a human problem with 
1,826 homes. Can we work out a solution, I think the chairman 
is suggesting, stipulating your principle, without 
unnecessarily discommoding and harming those individuals who 
are there. They are here now. Is the only solution to make the 
point about, no, you cannot exercise that right on public land, 
we have to evict you. You all have to go away by X period in 
history. And I think that's really the question here.
    Mr. Johnson. Sure, I agree.
    Mr. Connolly. And I share the chairman's frustration that 
there has to be some kind of middle way that allows us to, you 
know, assert that principle while also not harming innocent 
people who were trying to be right with the law. Now, if they 
are operating illegally, that's a different matter, and, Mr. 
Monteith, I know you would share that, as you are sworn to 
uphold the law, as am I, as is the chairman. And in local 
government, that's what we have to do, right, but we also 
exercise common judgment while we are doing it, and that's 
really I think the challenge here. So, no one, I think, would 
take issue with your assertion, but on the other hand, we got a 
lot of Ms. Sneed here who, in good faith, have chosen a 
lifestyle and a place to live to raise their families and don't 
want to be evicted arbitrarily. And so we got to find a middle 
way to make both work.
    Mr. Johnson. If I can make one point here, and I agree with 
that and this is hard. It was not arbitrary and capricious, it 
was hard-thought and took a long time. At the end of the sunset 
period, the youngest floating house that got a permit there be 
70 years old. And the oldest will be 100. And so I don't know 
what the period is that you can exert occupancy and some right, 
but 70 years is a pretty long time. So it's not just 30 years. 
It's, remember those permits were issued in 1978.
    Mr. Connolly. I assure you it is not as long as you think.
    Mr. Meadows. Yeah. All right, if--I want to thank all of 
the witnesses, and I'm looking forward to the follow-up. I'm 
looking forward to resolving this in a way that doesn't harm 
the families that are here, doesn't harm the economy that we 
see. And we didn't put a lot of emphasis on this, but I can 
tell you there are marina owners, there are people that truly 
make their living, and, Mr. Johnson, since you have been there, 
you know, Graham and Swain County have been in the depression 
for a long time. And so when we look at that, when we talk 
about jobs, we are talking about, you know, some of the folks 
that honestly in Graham County, the population doesn't grow 
because there's no new jobs, and you are about to take some of 
them away. And when that happens in my backyard, let me tell 
you what you have experienced today is just the beginning. 
Because I'm--and I have told you that personally and you know, 
that.
    Mr. Johnson. Yes, sir.
    Mr. Meadows. And it is not a threat. I have got to stand up 
for the people that I represent. And I don't own a floating 
home, don't plan to own a floating home. They will get real 
cheap, you know, as it gets closer, so I could probably buy, a 
half dozen of them. So, you know, as we look at that, I guess 
you all are going to compensate all of these floating homes 
owners because you didn't enforce your own regulation, so when 
you do that, you are going to actually compensate them, right?
    Mr. Johnson. I doubt that that's the case.
    Mr. Meadows. Yeah, I doubt it too. If there's no further 
business before the committee, the committee stands adjourned.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
